Counsel of Record for Respondent Sergio L. Ramirez
Samuel Issacharoff
40 Washington Square South
New York, NY 10012
212-998-6580
si13@nyu.edu
Counsel for Petitioner TransUnion, LLC
Paul D. Clement
Kirkland & Ellis LLP
1301 Pennsylvania Avenue, NW
Washington, DC 20004
202-389-5000
paul.clement@kirkland.com
Counsel for United States
Elizabeth B. Prelogar
Acting Solicitor General
United States Department of Justice
950 Pennsylvania Avenue, NW
Washington, DC 20530-0001
202-514-2217
supremectbriefs@Usdoj.Gov

